NO. 20-5904

 

 

IN THE
Supreme Court of the United States

TARAHRICK TERRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for
Petitioner contains 8,257 words, excluding the parts of the Brief that are exempted
by Supreme Court Rule 33.1(d).

I certify under penalty of perjury that the foregoing is true and correct.

     

12th, 2021
